IN THE SUPREME COURT OF THE UNITED STATES

JAMES H. SMITH
Petitioner,
vs.

r

BRIAN COOK, Warden

:

<

P O r.
•'■■■■

•-A

"

i

Respondent,

\

i ■

,1

■;

•

’

i

!.;!■■

'

t»i

4vi

* f J

PETITION FOR WRIT OF CERTIORARI

FILED
NOV 0 6 2020

Respectfully submi

/ames H. Smith #689-855
PO Box 56
Lebanon, Ohio 45036

>

n
I

I

'

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

ii

r*

h
■

QUESTIONS PRESENTED

T). Can an attorney demonstrate deficient performance in
representing a client while also facing serious criminal
charges in the same court.
2). Should a trial court ensure that a defendant understands
his confrontation clauses rights before admitting
stipulation that violate those rights.
3). Does this Court's decision in Johnson v, Williams, 568
U.S. 289 (2013) require AEDPA deference where the statecourt misconstrue the petitioner's argument and did
not reach the '''core" of petitioner's federal claim.

iii

TABLE OF CONTENT
PAGE(S)

CONTENT
QUESTIONS PRESENTED FOR REVIEW

* * •
111

INDEX OF AUTHORITIES

iv

OPINIONS BELOW

1

JURISDICTIONAL STATEMENT

2

CONSTITUTIONAL AND STATUTORY PROVISIONS

2

STATEMENT OF THE CASE

2-8

REASONS FOR'GRANTING THE WRIT

8

1.

Can an Attorney Demonstrate Deficient Performance
in Representing a Client While also Facing Serious
8
Criminal Charges in the Same Court

2.

The Evidence Was Not Sufficient To Sustain The
20
Verdict

3.

The Trial Court Should Have Ensured That Smith
Understood His Confrontation Clause Rights
Before Admitting Stipulations That Violate
Thoses Rights
22

CONCLUSION

34

CERTIFICATE OF SERVICE

35

APPENDIX TO PETITION

iv

INDEX OF AUTHORITIES
JURISPRUDENCE

PAGE(S)

)

Armienti v. United States, 234 F.3d 820
Barber v. Page, 390 U.S. 719....................
Brewster v. Hetzel, 913 F.3d 1042..........
Brookhart v. Janis, 384 U.S. 1.........
Buck v. Savis, 137 S.Ct. 759.............. ..
Campbell v. Bradshaw, 674 F.3d 578........
Carter v. Sowders, 5 F.3d 975..................
Chadwick,v. Janecka, 312 F.3d 597......
Crawford v. Washington, 541 U.S. 36....
Cullen v. Pinholster, 563 U.S. 170........
Cuyler v. Sullivan, 446 U.S. 335............
Faretta v. California, 422 U.S. 806
Henderson v. Cockerell, 333 F.3d 592
In Re Winship, 39E U.S. 358................
Iowa v. Tovar, 541 U.S. 77..................
Jackson v. Virginia, 443 U.S. 307...
Jells v. Mitchell, 538 F.3d 25..........
Johnson v. Williams, 568 U.S. 289...
Johnson v. Zerbst, 304 U.S. 458........
Lafler v. Cooper, 566 U.S. 156..........
Lester v. Leuck, 50 N.E.2d 145..........
McKinney v. Hoffner, 830 F.3d 363...
Missouri v. Frye, 566 U.S. 134..........
Moss v. United States 323 F.3e 445..
Mickens v. Taylor, 535 U.S. 162..
Minnick v. Mississippi, 498 U.S. 146
Ray v. Maclaren, 655 F. App'x 301
Rayner v. Mills, 685 F.3d 631....
Rice v, White, 660 F.3d 242..........
Reyes-Vejerano ,v. United States, 276 F.3d 94..............
Rodic v. Thistledown Racing Club, Inc., 615 F.2d 736 *
Schneckloth v. Bustamonte, 412 U.S. 218........................
Smith v. Hofbauer, 312 F.3d 909........................................
Smith v. Illinois, 469 U.S. 91..........................................
State v. Armengau, 93 N.E.3d 284......................................
Strickland v. Washington 466 U.S. 669............................
Tanner v. Yukins, 687 F.3d 661..........................................

v

• •

8,11,13
24
27
24
19
25.26
24.26
30
32
16
9
23
27
20
24
20
27
25
24
Passim
23
25,30
Passim
10
9
24
30
10,18
23
19,11,13
•6
23
10
31
3,4
Passim
20,21

No.:
IN THE SUPREME COURT OF THE UNITED STATES

JAMES H. SMITH
Petitioner,
vs.
BRIAN COOK, Warden
Respondent,

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
Petitioner James H. Smith (hereinafter ‘'Smith") respectfully
puays that a Writ of Certiorari issue to review the judgement
entry of the United States Court of Appeals for the Sixth Circuit
entered on April 15, 2020. (App'x A).
OPINIONS&BEiiOW

The opinion of the United States Court of Appeals for the
Sixth Circuit dening rehearing en banc is published at Smith
v. Cook, 2020 U.S. App. LEXIS 18876. (App'x B). The order affirming
the United States District Court is published at Smith v. Cook,
856 F.3d 377 rendered on April 15, 2020, and is attached at (App'x
A). The United States DistriStpCourt Order is published at Smith
v. Cook, 2017 U.S. Dist. LEXIS 160910 rendered on Sept. 29, 2017.
(App1? C).

JURISDICTIONAL STATEMENT
The decision of the United States Court of. Appeals for the
Sixth Circuit was issued on April 15, 2020. This Court has
jurisdiction pursuant to 28 U.S.C. §1254(1) to review this petition.
CONSTITUTIONAL AND STATUTORY PROVISION
This case invilves the right to effective assistance of
counsel and the violation of the right to confront witnesses
as gauranteed by the Sixth Amendment to the United States Constitution
as it is applied through the Fourteenth Amendment to the United
States Constitution.
STATEMENT OF THE CASE
A.

Smith Is Charged with Robbery
Smith was arrested in July 2012, for his alleged participation

in the robbery of a Local Red Robin restaurant in Columbus, Ohio,
aftiaE'/ being found near the scene of the crime with clothes similar
to those worn by the robber. Trial Transcript ("Tr.") Vol.5,
R.7-6, PageID#1261-72. He was charged with that robbery in an
11-count indictment filed in the Franklin County Court of Common
Please (the local Ohio State trial court). Hearing Transcript,
R.27-1, PageID#1829-30. Smith retained Javier Armengau, a local
criminal defense lawyer, as counsel to defend against those charges.
Id. PageID#1833i

:

Eight months later, in March 2013, Smith w^s charged in
a new 142-count indictment that included 34 counts of aggravated
robbery, 34 counts of robbery, 54 counts of kidnapping, 19 counts
of having a weapon under disability (i;e., being a felon in possession
of a firearm), and one count of tampering with evidence. Indictment,
2

R.7-1, PageID#70-252. Those charges were based not only on the
one robbery for which Smith was originally arrested and charged,
but also on 18 other previously unsolved robberies of other
restaurants in the Columbus area that had occurred in the five
months before Smith was arrested. Id.
Because Smith and his family no longer had funds available
to pay for a lawyer, the court appointed Armengau to represent
Smith. Hearing Transcripts, R.27-1, PageID#1833-38.
B.

Smith's Attorney") Is Charged in the Same Court with
Rape.
Armengau, however, ,had serious legal troubles on his own.

In April 2013 - less than a month after the new indictment against
Smith - Armengau was arrested on charges of gross sexual imposition
and public indencency, when a woman who had retained Armengau
to represent her son reported to the police that Armengau had
forcibly fondled her breast at a meeting in his office. Complaint,
State v, Armengau, No. 13"<CR-2217 (Franklin Cty. Ct. of Common
Pleas filed April 11, 2013); see State v. Armengau, 93 N.E.3d
284, 292 (Ohio Ct. App. 2017).
That accusation opened the floodgates. Within a month, "other
accusers began coming forth, leading to an 18-count indictment
issued by the Franklin County Grand Jury alleging crimes victimizing
five different weman." Armengau, 93 N.E.3d. at 292. Armengau was
indicted on May 20, 2013, on six counts of rape, five counts
of sexual battery, three counts of gross sexual imposition, three
counts of kidnapping, and one count of public indecency, for
acts spanning a period from January 1998 through Arpil 2013.
3

Socket;* State v. Armengau, No. 13-CR-2217 (Franklin Cty. Ct. of
Common Pleas indictment filed May 20, 2013); see Armengau,
93 N.E.3d 292, 303; Armengau Denies Sexual Assault as Charges
. added

Cblumbus Dispatch, May 21, 2013, available at https://

www.ohio.Qom/akron/news/columbus-defense-attorney~arrested-onsex-charge (last visited Oct. 4, 2018). Those serious charges
exposed Armengau to a possible sentence of up to decades in prison.
See, e.g.;; Ohio Re. Code Ann. §2907.02(B)(classifying rape as
a first-degree felony); Id. §2929.14 (first-degree felony carries
three to eleven years in prison).
According to the first woman to report his conduct, Armengua
had not only aggressively fondled her breast in the office, but
also unzipped his pants and forced his genitals in front of her
face, Armengau, 93 N.E.3d at 292. Another victim testified that
Armengau had felt her breast and then masturbated in front of
her in his office. Id. at 296. A third victim, a former client,
testified that Armengau had coerced her into performing oral
sex on multipe occasions. Id. at 294^295. A fourth victim testified
that Armengua demanded oral sex in exchange for a promise to
help her son, who was Armengau's client; that he had masturbated
naked in his office in front of her several times; that he had
suggested she perform oral sex on both him and the judge in order
to imporve the outcome in her son's case; and that he had finally
forced her to perform oral sex on him in an attorney conference
room at the courthouse. Id. at 295.
The charges against Armengau were filed in the same local
Ohio state court as the charges against Smith, and were initially

4

assigned to be prosecuted by the same local prosecutor's office.
See Docket, State v. Armengau. No. 13-CR-2217 (Franklin Cty.
Ct. of Common Pleas entry for May 6, 2013;(showing assignment
to Frnaklin County Prosecuting Attorney Ronald O'Brien). Although
a special prosecutor from the Ohio Attorney Generals

Office

was appointed "to avoid the appearance of either favoritism or
bias against the defendant," Notice of Appointment of Special
Prosecutor, State v. Armengau, No. 13-CR-2217. Id. Armengau remained
convinced that the local prosecutors had a hand in his case.
In deciding to appoint Armengau to represent Smith - a month
after Armengau was arrested, but shortly before the full indictment
charging hi||with rape and sexual battery was filed - the trial
court acknowledged that'jArmengau faced a "pending legal matter,"
and recognized "the effect that might have" on his representation
of Smith. Hearing Transcript, R.27-1, PageID#1838. Btit instead
of appointing a different attorney, the trial court merely advised
Armengau to "be sure to talk to Mr. Smith about the pending legal
matter that you have personally and the effect that might have
• • •

so he understands that." ^d. At no point did the trial court

itself advise Smith of the charges against Armengau, or the potential
conflict of interest that Armengau might face as a defendant
in the same court in which he was representing Smith. Nor is
there any indication in the recordithat Armengau actually discussed
these critical issue with Smith. Even after the indictment charging
Armengau with rape and other serious felonies was filed, the
trial court never raised the issue again, and never make any
effort to provide Smith with counsel who was not under a pending
5

felony indictment in the same court.
C.

Pretrial Procceedings
From the moment Armengau was appointed, the case against

Smitti ]proceeded at lightning speed. In a case with a 142-count
indictment

involving 19 separate robberies, the parties proceeded

to trial just six months after the indictment was filed, and
just three months after the State provided discovery. See Identification
of Discovery Provided, State v. Smith, No. 13-CR-1342 (Franklin
Ct. of Common Pleas entered Aug. 8, 2013)(setting final pretrial
conference for Sept. 11, 2012, and trial for Sept. 23, 2013).
The state trial court docket filed in the district court only
includes entries dating bacR to October 2013. Franklin County
Court of Common Pleas Docket, R.7-1, PageID#500-504. The full
docket is available from the Franklin County Clerk of Courts website
https://fcdcfcjs.co.franklin.oh.us/CaselnformationOnline/caseSearch.
Those dockets are proper subject for judicial notice. See

e*8• >

Rodic v. Thistledown Racing Club, Inc., 615 F.2d 736, 738 (6th
Cir. 1980). From the filing of the indictment to the first day
of trial

that schedule gave Armengau barely ten days per robbery

to prepare Smith's defense.
That accelerated timetable was only possible because Armengau
agreed to what was in effect a trial by stipulation. In what
Armengau lateA described as a "favor to the prosecution," Tr.
Vol.2, R.7-3, PageID#641,,Armengau agreed to stipulate to a summary
of what occurred at each of the 19 robberies and how various
witnesses would have described the prepetrator at each robbery,
basen on police interviews of those witnesses. (Tr. Vol.2, R6

3, PageID#637-38; see, e.g., Tr.Vol.2, R-7-3 PageID#580-81, 605607

613-15 (same stipulations). As Armengau recognized, these

stipulations "negate[d] any opportunity" for the defense "t'o(;Sjr_ossJ?
examine and bring out any inconsistency" in the statements of
the absent witnesses. ,,Tr.Vol.2,R.7-3,PageId#547-58. Armengau
agreed to sacrifice those key rights in order to "streamline
[the case] for trial purposes

• • •

[and] avoid the State going

through what would amont to a dog-and-pony show." Id. PagelD# 547.
Of course, that decision also savdd Armengau the extensive .time
and effort that would have been required to investigate the testimony
of those absent witnesses and to prepare to cross-examine them
at trial.
Astonishingly, Armengau did not confer at all with Smith
regarding the decision to stipulate to the facts of the 19 robberies
and the physical descriptions provided by the absent witnesses.
Petition,R. 1, PageID#6. Despite the extraordinary, significance
of the stipulations in the case, Armengau never once spoke with
Smith about: hisrright to reject those stipulations and insist
on confronting all of the witnesses against him, and neither
Smith nor Armengau ever signed the written stipulation introduced
at tiral. Id* PageID#4, 6. The trial court likewise never advised
Smith of his right to confront the witnesses against hiijt, or
informed him that the stipulations would deprive himviof that right.
Id. PageID#4.
7

REASONS FOR GRANTING THE WRIT

The decision of the United States Court
of Appeals for the Sixth Circuit conflicts
with the Court's Clear Precedents.
This Court should accept review of Smith's appeal because the
United State Court of Appeals for the Sixth Circuit has decided
a importsederal question surrounding the Petitioner's Rights
to have effective assistance of counsel under this Court's precedents
described in Srtickland v. Washington, 466 U.S. 669 (1984).
Moreover

the Court of Appeals failed to decide the issue concerning

the defendant's rights to understand his confrontation rights.
Finally, the Court of Appeals failed to issue forth a decision
in Smith's favor due to the district court's misconstruing Smith's
federal claims.
1.

Can an Attorney Demonstrate fieficient Performance
in Respresenting a Client While also Facing Serious
Criminal Charges in the Same Court.
The Sixth Amendment.gives efeery criminal defendant the right
I

to "the Assistance of Counsel for his defense." U.S. Const. Amend.
VI. As the Supreme Court has long recognized, that guarantee
requires the "effective assistance of counsel." See Missouri
v. Frye, 566 U.S. 134, (lG8.'.(2012)(Emphasis added); see also
Strickland 466 U.S. at 686. Smith was denied the right to effective
assistance of counsel in at least two ways: because Armengau
continued to represent Smith despite a severe conflict of interest
that could easily have affected the outcome of the trial, and
because Armengau failed to confer with Smith about a plea offer
carring a sentence more than 50 years shorted than the one Smith
8

Smith ultimately received. Because the Ohio Court of Appeals
didregarded clearly established Supreme Court precedent in concluding
otherwise, the judgment below must be reversed.
A.

Smith's Attorney Provided Ineffective Assistance of
Counsel by Representing Smith While Under Pending
Rape Charges in the Same Court.

To begin with, Armengau provided ineffective assistance
throughout the trial court proceedings by representing Smith
while Armengau himself was facing criminal charges for rape and
sexual assault in the same court. Those criminal charges against
Armengau divided his loyalties and caused his representation
of Smith to fall below the constitutionally required minimum.
When a defendant asserts that his trial counsel provided
ineffective assistance due to a conflict of interest, he must
show that "an actual conflict of interest adversely affected
his lawyerSs performance." Cuyler v. Sullivan, 446 U.S. 335,348
(1980). A defendant who shows that a conflict of interest actually
affected his representation "need not demonstrate prejudice in
order to obtain relief." Id. at 349-50. Although the Supreme
Court has only had occasion to apply this more lenient standard
to conflicts involving multiple concurrent representation, see
Mickens v. Taylor, 535 U.S. 162, 175 (2002), M has referred
to the underylying principle in broader terms, see, e.g., Strickland
466 U.S. at*692,, and other courts have correctly understood that
principle to apply-to other conflicts of interest as well. See,
e.g.m Reyes-Vejerano v. United States, 276 F.3d 94, 99 (1st Cir.
2002)(applying Sullivan to conflict arising from criminal investigation
into counsel); Armienti v. United States, 234 F.3d 820
9

824-25

(2nd cir. 2000)(same); cf. Moss v. United States, 323 F.3d 445,
472 (6th Cir. 2003)("It is well-established that a conflict of
of interest may arise where defense counsel is subject to a criminal
investigation"). To the extent the-Sixth Circuit read Mickens
as establishing that Sullivan: cannot be applied in §2254 cases
beyond the multiple-representation context, see Smith v. Hofbauer,
312 F.3d 809 (6th Cir. 2002), Smith respectfully submits that
reading is erroneous. Williams v. Taylor, 529 U.S. 362, 407 (2000)
(state court unreasonably applies Supreme Court precedent when
it "unreasonably refuses to extend [a] principle to a new context
where it should apply").
In any event,, even under the more stringent Strickland standard,
the Ohio Court of Appeals disregarded clearly established Supreme
Court precedent by holding that Smith had failed to show ineffective
assistance of counsel. Under that well-established test, the
Sixth Amendment is violated if (1) defense counsel performed
at a level "below an objective standard of reasonableness

and

(2) "the deficient performance prejudice the defense." Strickland,
466 U.S. at 687-88. To show prejudice, a defendant need only
demonstrate a "reasonable probability" that the deficient performance
affected the outcome of the proceedings. Id. at 694. Both prongs
of that accepted standard for ineffective assistance are easily
met here.
1.
f

Smith's attorney demonstrated deficient performance
in representing Smith while also facing serious criminal
jehar ge ST ins the same court.

The Ohio Court of Appeals rejected Smith s ineffective assistance

10

claim solely on the second prong of the Strickland (test, by
holding that Smith had failed to show prejudice. JA8-9. Because
the Ohio Court of Appeals did not address the issue of deficient
performance, this Court reviews that question de novo. Rayner
v. Mills, 685 F.3d 631, 638 (6th Cir. 2012)("When a state court
relied on only one Strickland prong to adjudicate an ineffective
assistance of counsel claim, AEDPA deference does not apply to
review of the Strickland^! prong not relied upon by the state
court.").
The deficient performance here is clear. In light of the
serious criminal charges for rape and sexual assault that were
pending against Armengau, a competent attorney in his position
plainly would not have agreed to represent a criminal defendant
in the same court. The charges agaisnt Armengua not only made
it impossible for him to devote his full time and attention to
defending Smith; they also raised an inherent conflict of interest,
because Armengau had a strong personal incentive to seek the
goodwill of the court and the State even if it meant sacrificing
Smith's best interest. See, Reyes-Vejerano, 276 F.3d at 99 (explaining
that "a defense lawyer within the sights of a targeted criminal
prosecution may find his personal interest at odds with his duty
to a client:); Armienti, 234 F.3d at 824-25. A competent attorney
would not have agreed to take on a representation given that
obvious conflict.
That conflict of interest also led Armengau to make specific
choices that fell below the constituional minimum for effective
11

representation. Although Smith facted a 142-count indictment
charging him with involvement in 19 different robberies, see
Indictment, R.7-1, PageID#79-252, Armengau agreed to a rapid
schedule that gave him only six months to prepare the defense
case. See supra pp. 6-7. That hurried timetable forclosed any
through investigation or preparation of an adequate defense for
Smith - but benefited Armengau personally by ensuring he would
have additional time and resources to focus on his own defense.
Armengau then compounded the problem by agreeing, as a "favor
to the prosecution," Tr.Vol.2,R.7-3,PageID#641, to allow the
State to present stipulations summarizing the facts of each robbery
and descriptions of the robbery taken from police interviews.
That decision to "streamline [the case] for trial purposes" brought
Armengau goodwill from the trial court and from the State, but
only at Smith's expense, as it "negated any opportunity to crossexamine and bring out any inconsistency" in the testimony of
the witnesses. _Id. PageID#547-48. Still worse, Armengau made
that decision without consulting Smith at all, Petition,R.l,Page
ID#6, which underscores how little thought Armengau actuall gave
tohis client's interest.
Nor did Armengau even seek to hold the State to strict performance
of the agreement leading to those stipulations. The State stated
on the record that it had agreed that if it was "not able to
produce a victim from

• •

. any particular [robbery]," it "would

agree to dismiss the charges" as to that robbery. Tr.Vol.6, R.77, PageID#1465. But as to one robbery, the only eyewitness testimony
is presented was a restaurant manager who was not named as a
victim in the indictment, compare Indictment, R-7-1,PageID#105-

12

12, with Tr.Vol.2,R.7-2,PageID#645-62; and as to the crucial
Red Robin robbery, the trial court dismissed the robbery charge
naming Mfula (the only testifying eyewitness) as a victim, see
Tr.Vol.6, R-7-7,PageID#1489-90. Armengau nevetheless raised no
argument whatsoever that the State was required by its agreement
to dismiss the charges regarding those robberies - again buying
himself goodwill from the State at the expense of his client.
Cf. Reyes-Vejerano, 276 F.3d at 99; Armienti, 234 F.3d at 82425. Given the overriding conflict of interest that Armengau faced
- demonstrated by the specific choices he made that favored his
own interest over Smith's - the record as a whole clearly shows
that Armengau failed to provide the effective assistance guaranteed
by the Sixth Amendment.
2.

There is at least a reasonable probabilty that the
outcome at trial would have been different with
competent counsel.

The Ohio Court of Appeals rejected Smith's^ineffective assistance
claim on the ground that Smith had failed to show prejudice.
JA8-9. But it did so

only by applying the wrong standard: despite

recognizing that Strickland requires only a "reasonable probability"
that the deficient performance affected the outcome, JA8; see
Strickland, 466 U.S. at 694, the Ohio Court of Appeals set a
higher bar, erroneously requiring Smith to show that "the outcome
of the trial would have been different if [Armengau] had conducted
the trial differently." JA8 (emphasis added). By requiring Smith
to show the outcome would have been different (rather than just
a reasonable prjpbability that the outcome could have been different),
the Ohio Court of Appeals deviated from clearly established Supreme
13

Court precedent. See Williams, 529 U.S. at 405-06 (state court
decision is "contrary ;to" Strickland under AEDPA if it requires
prisoner to show "by a preponderance of the evidence that the
result of his criminal proceeding would have been different";
(emphasis added)). Because the Ohio Court of Appeals applied
the wrong legal standard, this Court should review the prejudice
issue de novo. See

Lafler v. Cooper, 566 U.S. 156, '■!73* (2012)

^state court decision that "stat[ed] the incorrect standard"
was "contrary.; to clearly established federal law"); Williams,
529 U.S. at 404-05 (same); Dyer v. Bowlen, 465 F.3d 280, 284
(6th Cir. 2006)(when state-court decision is contrary to clearly
established law, federal court "review the merits of the petitioner's
claim de novo").
Even applying AEDPA deference, however, the Ohio Court of
Appeals decidion would still be unr easonable. That court concluded
theat based on the purported similarities among some of the charged
robberies, the evidence that Smith was the robber in each case
was "overwhelming." JA9. But the jury obviously disagreed, acquitting
Smith on all counts related to nearly a third of the robberies
charged. Tr.Vol.7yR.7-8,PageID#1656-69. That was for good reason.
As explained in more detail below, the evidence presented by
the prosecution - which for many of the robberies came down to
the fact that the restaurants were robbed by a black man with
a mask and a gun around closing time - was insufficient even
as to the counts on which the jury convicted, let alone the counts
on which it acquitte. See infra Part II.
If Smith had received the effective representation to which
14

he was constitutionally entitled - including a lawyer who was
not facing rape charges in the same court, without an overwhelming
interest in securing the goodwill of the court and the State
for his own criminal trial - there is at least a reasonable probabiltyi
that Smith would have obtained a different outcome on at least
some of the counts of conviction. Competent counsel would have
insisted on adequate time to prepare for trial in this complex
and fact-intense case; would have been unkikely to accept stipulations
covering highly significant facts (and certainly would not have
accepted those stipulations without discussing them with Smith);
and at least would have insisted that the State abide by its
agreement and dismiss the counts for which it failed to produce
a victim. Given the contradictory circumstantial evidence on
which the prosecution relied for its entire case, effective representation
could easily have altered the verdict on one or more of the robberies
for which Smith was convicted, removing six years from his sentence
for each additional acquittal, See Judgment, R.7-1,PageTD#25965; Tr.Vol.7,R.7-8,PageID#1706-08; JA13. Moreover

the jury may

well have been prejudice agaist Smith by the mere fact that his
attorney was an accused rapist. Although the Ohio Court of Appeals
claimed that fact was "[ujnknown to the jury,” JA7, there is
nothing in the record to support that conclusion,nand charges
were widely reported in the local media. See, e.g., Armengau
Denies Sexual Assault as Charges Added, supra; Rape Cases not
Keeping Lawyer from Practicing. That is more than enough to show
prejudice under Strickland.
15

At a bare minimum, if this Court cannot determine with confidence
on the present record whether both prongs of the Strickland test
as met, it should vacate the judgment below and remand for an
evidentiary hearing. Because the state court decision is not
entitled to deference under §2254(d), federal habeas review of
the underlying ineffective assistance claim is not limited to the
state court recorrd. See Cullen v. Pinholster, 563 U.S. 170, 181182, 185-86 (2011)(holding that "review under,§2254(d)(l) is limited
to the record that was before the state court," but that limitation
does not apply "where §2254(d)(l) does not bar federal habeas relief '0.
As such, if this court cannot reverse the judgment below outright
on the existing record, it should vacate the judgment and remand
for further factual development.
B

Smith's Attorney Provided Ineffective Assistance of
Counsel by Failing to Confer with Smith Regarding
.the State's Final Pleas Offer.

The Sixth Amendment right to counsel "extends to the plea­
bargaining process." Lafler, 566 U.S. at 162. In negotiating a
plea bargain, as at trial, defendant are "entitled to the effective
assistance of competent counsel." Id. In particular, defense counsel
"has the duty to communicate formal offers from the prosecution
to accept a plea on terms and conditions that may be favorable
to the accused," Frye, 566 U.S. at 145, and give the defendant
competent advice regarding whether to accept or reject such plea
offers, see, Lafler, 566 U.S. at 162-63.
"[Cjlaims of ineffective assistance of counsel in the plea
bargain context are governed by the two-part test set forth in
16
i

UJ

Strickland.11 Frye, 566 U.S. at 140. In the plea-bargaining context,
the prejudice prong of the Strickland test is met by showing a
"reasonable probability" that "the outcome of the plea process
would have been different with competent advice." Lafler, 566 U.S.
at 163. Where (as here) the ineffective assistance of counsel causes
a defendant to miss the chance to accept a favorable plea offer,
that means showing a reasonable probability that the defendant
would have accepted the plea offer, the prosecution would not have
withdrawn it, the court would have accepted its terms, and the
resulting sentence would habe been less severe than the sentence
actually imposed at trial. JW. at 164.
Although Smith specifically raised his claim of ineffective
assistance in the plea-bargaining process on direct appeal,

see

brief, R.7-1, PageID#313-15, the Ohio Court of Appeals never acknowledge
that the Sixth Amendment right to counsel applies to the plea­
bargaining process or applied the governing principles established
in Frye and Laf ler to analyze that claim. JA8. In fact, the Ohio
Court of Appeals said nothing whatsoever about whether Armengau
had provided deficient assistance by failing to advise Smith regarding
the State's final plea offer. JA8-9. Instead, the Ohio court focused
solely on the secong prong of the Strickland test, finding that
Smith had not shown prejidice from any deficient performance. JA89. ,
But in conducting that prejudice inquiry, the Ohio Court of
Appeals applied only the standard for ineffective assistance of
counsel a£ trial, rejecting Smith's ineffective assistance claims
17

because he had not shown that "the outcome of the trial would have
been different if defense coufisel had conducted the trial differently."
JA8. That not only represents the wrong standard for prejudice
in the trial context under Strickland, but represents the wrong
inquiry entirely in the plea contest under Lafler. As Lafler makes
clear, the question in the plea context is whether "the outcome
of the plea process would have been different with competent advice"
- here, whether that process would have led to a guilty plea with
a much lower sentence than the 84 years Smith received at trial.
566 U.S. at 163-64 (emphasis added). The strength of the prosecution
evidence at trial - which was the sole factor on which the Ohio
Court of Appeals relied in rejecting Smith's ineffective assistance
claim - has no bearing on that question. See Ici. at 164 (rejecting
the argument that "there can be no finding of Strickland prejudice
if the defendant is later convicted at a fair trial"). As a result,
because the Ohio Court of Appeals did not review the deficient
performance issue at all, and violated clearly established Supreme
Court precedent by applying the wrong legal standard to the prejudice
issue, this Court should agains apply both parts of the Strickland
test de novo. Rayner, 685 F.3d at 638; Dyer

465 F.3d at 284.

As Armengau admitted in open court, he "did not share with
Smith

• • •

that the offer was 27 years" and "really ha[d] never

sat down to try to talk about it" with him. Tr.Vol.l, R.7-2, Page
ID# 534. Even after making that admission, Armengau never requested
additional time to discuss the 27-year plea offer with his client.
Indeed, as far as the record shows, Armengau and Smith never had
any conversation about that plea offer whatsoever. That failure

Si

18

to discuss the proffered plea deal with Smith was a clear violation
of the established duty, recognized by the supreme Court in Frye
and LafJLer, for competent defense counsel to communicate any plea
offer to the defendant and to provide adequate advice regarding
such offers. Frye, 566 U.S. at 145; 1 Lafler, 566 U.S. at 162-63.
By breaching that duty, Armengau fell well short of providing the
"professionally competent assistance" that the Sixth Amendment
requires. Buck v. Savis, 137 S.Ct. 759, 775 (2017)(quoting Strickland,
466 U.S. at 690.
To be sure, Smith was made aware of the existence of the 27
i^ear offer in open court on the morning of trial. Tr.Vol.2, R.73, PageID#534-35. But the mere fact that the offer was eventually
communicated to Smith cannot excuse Armengau's deficient performance
in failing to counsel Smith regarding that offer. As Lafler makes
clear, the Constitution is not satisfied just because the defendant
eventually learns of a plea offer; the Sixth Amendment also requires
defense counsel to give competent advice regarding that offer.
See Lafler, 566 U.S. at 162-63. Armengau failed to carry out the
basic duty here.
That deficient performance also causd Smith severe prejudice.
If Armengau had taken the time to properly discuss the State'-s
final plea offer with Smith - as any competent counsel would have
- there is at least a "reasonable probability" that Smith would
have accepted that offer and obtained a sentence more than 50 years
lower than what he ultimately received at trial. Lafler, 566 U.S.
at 163-64.
19

2

The Evidence Was Not Sufficient To Sustain The Verdict.
The Ohio Court of Appeals also unreasonably applied Supreme

Court precedent in finding that the minimal circumstantial evidence
on which the prosecution relied was sufficientto prove beyond a
reasonable doubt that Smith actually committed each of the robberies
for which he was convicted. For nearly half a centry, it has been
clearly established federal law that "the Due Process Clause protects
the accused against conviction except upon proof beyond a reasonable
doubt of every fact necessary to constitue the crime with which
he is charged." In re Winship397 U.S. 358, 364 (1970). If "no
rational trier of fact could have found proof of guilt beyond a
reasonable doubt," the conviction violates due process. Jackson
vv Virginia, 443 U.S. 307, 329 (1979). When the evidence "establishes,
at best, 'reasonable speculation • II that the defendant is guilty,
it is an unreasonable application of established Supreme Court
precedent to permit the. conviction to stand. Tanner v. Ykinsy 867
F.3d 661, 672 (6th Cir. 2017).
Of the 19 robberies for which Smith was indicted, the prosecution
dismissed the charges related to one before trial and another before
the jury was instructed, and the jury acquitted on five others.
Tr.Vol.7,R.7-8,PageID#1656-69. That left only 12 robberies as to
which the State was actually able to obtain a conviction. For each
of those 12 robberies, as for all the others, the State was unable
to put forward a single eyewitness who could identify Smith as
the robber. Instead, the State (and the Ohio Court of Appeals)
relied on purported similarities among the various robberies, along
with the fact that Smith was arrested near the last robbery, to
20

conclude that Smith must have committed each one. Those similarities,
however, essentially amounted to the fact that the robber in each
case was a black man, wearing a madk and carrying a gun, who was
robbing a restaurant around the time that it closed. Even the State
recognized that evidence was not enough with respect to one of
the charged robberies, voluntarily dismissing all of the counts
related to that robbery and recognizing that the "similarities1"
between that crime and the other charged robberies were just a
"coincidence." Tr.Vol.l-, R.7-2, PageID#513-15; Tr.Vol.7. R.7-8
PageID#1532-33. So too for the other robberies; the purported
"similarities" come nowhere near the standard of evidence required
by the Constitution to convict Smith' of each robbery beyond a
reasonable doubt.
In short, the record in this case simply is not sufficient
to sustain the verdict as to each robbery of which Smith was convicted.
After it arrested Smith near the scene of the last robbery, the
State made every effort in its power to tie him to numerous other
unsolved robberies that happened to have occurred in the Columbus
area in the previous five months. But even taken in the light most
favorable to the State - and even despite the ineffectiveness of
defense counsel

the evidence at trial never amounted to more

than "reasonable speculation" that Smith might have been the prepetrator
of those robberies as well. Tannery 867 Fi3d 672. Because clearly
established Supreme Court law prohibits any conviction based on
such guesswork, the petition should be granted as to each robbery
for which the evidence is insufficient.

21

3.

The Trial Court Should Have Ensured That Smith Understood
His Confrontation Clause Rights Before Admitting Stipulations
That Violated Thoses Rights.
Finally, relief is also warranted because the trial court

erred by failing to ensure Smith understood his rights under the
Confontation Clause before admitting stipulations that violated
thos rights. The Ohio Court of Appeals inexplicably misunderstood
this claim, stating that Smith sought to argue that "stipulations
in general" violate the Confrontation Clause. JA11. Based on that
misunderstanding, it suggested that Smith invited the challenged
error by agreeing to the stipulations, and that his claim failed
on the merits. But Smith never argued that all "stipulation in
general " necessarily violate the Confrontation Clause; he argued
only that the trial court was required to ensure that Smith understood
his right to confront the witnesses against him before allowing
the prosecution to introduce numerous stipulations about how absent
witnessws would have testified. See Brief of Appellant, R.7-1,
PageID#302-06. Because the Ohio Court of Appeals did not address
the claim Smith actually presented, and because its misunderstanding
undermined both its procedural analysis and its merits analysis,
relief is warranted on this ground as well.
First, on the procedural question, the Ohio court of Appeals
held that the arguiement that "stipulations in general" violate
the Confrontation Clause "can be classified as falling within the
invited error doctrint," because Armengau (without consulting Smith)
agreed to the stipulation. JAll. But Smith never sought to make
any argument about "stipulations in general" violating the Confrontation
Clause. What Smith actually argued is that the trial court erred
22

by failing to ensure that Smith understood the Confrontation Clause
rights he was giving up. see Brief of Appeallant, R.7-1, PageID#30206. That argument plainly is not barred by the invited error doctrine,
as Smith never "invited or induced" the trial court to admit the
stipulations at issue without informing him of the rights that
those stipulation implicated. Contra JAll (quoting Lester v, Leuck,
50 N.E.2d 145, 146 (Ohio 1943)). Just as the invited error doctrine
does not bar a defendant from claiming that a trial court failed
to ensure he understood the rights he was giving up by pleading
guilty, see Fed. R. Crim. P. 11(b)(1), or the rights he was giving
up by choosing to represent himself, see Faretta v. California,
422 U.S. 806, 835-36 (1975), it does not bar Smith from claiming
that the trial court failed to ensure he understood the Confrontation
Clause rights he was giving up in the stipulation.
Second, on the merits, the Ohio Court of Appeals addressed
only whether stipulations in general violate the Confrontation
Clause, and not Smith's actual claim that the trial court erred
by failing to advise him on his Confrontation Clause rights. JAll.
Because the Ohio court of Appeals failed to address the claim that
Smith actually raised, the1 Sixth Circuit reviews it de novo. See,
e.g.m Rice v. White, 660 F.3d. 242, 252 (6th Cir. 2011)("lt is
well settled that we may review de novo an exhausted federal claim
that was not adjudicated on~the merits in state court.").
Even under AEDPA deference, however

the result would be the

same. As the Supreme Court has made clear, a defendant;*s waiver
of his Confrontation Clause rights must be "knowing and intelligent."
Schneckloth v. Bustamonte, 412 U.S. 218, 237-38 (1973)(explaining
23

that "the requirement of a knowing and intelligent waiver has been
applied

• •

. to those rights which the Constitution guarantees to

a criminal defendant in order to preserve a fair trial," including
"the right to confrontation"); see also Minnick v. Mississippi,
498 U.S. 146, 159-60 (1990); cfi Johnson v. Zerbst,304 U.S. 458,
464 (1938)(waiver requires Van intentional relinquishment or
abandonment of a know right or privilege"). Both the Supreme Court
and the Sixth Circuit have relied on that standard to determine
whether a defendant has made a valid waiver of his Confrontation
Clause rights. See,Barber v. Page, 390 U.S. 719, 725 (1968);
Brookhart v. Janis, 384 U.S. 1, 6-7 (1966); Carter v. Sowders,
5 F.3d 975, 980-81 (6th Cir. 1993).
Because the trial court never advised Smith of his Confrontation
Clause rights - and neither did Armengau, who never discussed
the stipulations with Smith at all, see Petition, R.l, PageID#6
- any purported waiver of those rights in agreeing to the stipulations
was not knowing and intelligent. See, e.g., Iowa v.Tovar, 541
U.S. 77, 81 (2004)(knowing waiver requires "sufficient awarness
of the relevant circumstances"). And because Smith never made
any Knowing and intelligent waiver of his Confrontation Clause
rights, the trial court violated those rights by admitting the
challenged stipulation. That clear constitutional error likewise
warrants granting habeas relief.
The Sixth Circuit rejected Smith's Confrontation Clause
claim, holding that Under AEDPA deference, the state cout's decision
was not contrary to clearly established Supreme Court precedent.
Op.7-15.
V

24

The panel recognized that if the Ohio Court of Appeals "did
not evaluate the merits" of Smith's Confrontation Clause claim,
it should review that claim de novo. Op.7. It likewise recognized
that there was a "meaninful distinction" between the claim that
the state court addressed and the claim that Smith actually raised.
Op.11. But in the panel's view, that distinction showed only
that"*the state court "failed to articulate each step in its reasoning,"
not that it failed to adjudicate Smith's claim, and so AEDPA
deference was still warranted. Op.11.
The panel acknowledged that Smith's contrary position was
"not entirely without support in [this Court's] caselaw." Op.10.
In fact, the panel recognized that the-Court has "twice concluded"
in published opinions that AEDPA deference is not warranted if
the state court misconstrued the petitioner's arguments and so
"did not 'reach the core

of the petitioner's federal claim."'

Op.10 (citing Campbell v. Bradshaw, 674 F.3d 578,596; Jells v.
Mitchell, 538 F.3d 478, 505). But the panel found those cases
"hard to reconcile" with the Supreme Court's subsequent decision
in Johnson v. Williams, 568 U.S. 289 (2013), which the panel
read as requiring AEDPA deference not only when a state court
"wholly omits discussion ©f the federal claim," but also when
the state court "imperfectly discusses" the federal claim. Op.89 (citing McKinney v. Hoffner, 830 F.3d 363 (6th Cir. 2016)).
The panel also fecognized that its decision to apply AEDPA
t.i—

1

deferenqe made' ja considerable difference to its analysis. .Under
that Court's precedent, the panel observed, "a defendant must
'personally waive his right to confronf"[a witness]," and "the

record must 'show that [the] defendant knew or was advised of
his rights' before doing so." Op.14>(bracket in original)(quoting
Carter v. Sowders, 5 F.3d 975, 981 (6th Cir. 1993)). As such,
applying existing Sixth Circuit jrecedent on de novo review
would require vacating Smith's conviction. But because the panel
instead applied AEDPA deference, it "focuse[d] only on Supreme
Court decision," and considered the court's prior decision of
"no moment." Op.14-15.
A.

Campbell, Jells, and Numerous Other Cases Confirms
That AEDPA Deference Does Not Apply Where a State
Court Misconstrues the Relevant Claim.

AEDPA deference applies only "with respect to any claim that
was adjudicated on the merits in State court proceedings." 28
U.S.C. §2254(d). Where the state court did not evaulate the petitioner's
claim on the merits, a (federal court reviews that claim de novo.
Op.7; see e.g., Campbell, 674 F.3d at 596.
The Sixth Circuit and others have repeatedly held, a
state court decision that misconstrues a petitioner's claim and so addresses a .different claim than the one the petitioner
actually raises - has not adjudicated the petitioner's claim on
•

the merits for AEDPA purposes. Campbell illustrates the ppihti
There Campbell claimed the trial court had erred by precluding
him from arguing voluntary intoxication as a mitigating factor.
674 F.3d at 596. The state court court, however, "misconstrued Campbell's
argument," reading it as a claim that the trial court just failed
to instruct on voluntary intoxication. Ih. Because the state
court misunderstood Campbell's claim and so "did not reach the
core of Campbell's argument," it did not adjudicate Cambell's
26

on the merits, and so the Sixth Circuit reviewed that claim de
novo. Id.
So too in Jells, where the petitioner asserted that the
prosecution failed to disclose exculpatory evidence until after
Jells was convicted. 538 F.3d at 505. But the state court "misconstrued
[that] claim," stating that Jells contended certain impeachment
evidence should ha^e been provided before trial rather than during
trial. JW. Because the state court misunderstood Jell's claim,
there was "no state court decision regarding the merits of the
claim." and so the Sixth Circuit reviewed it de novo. Id.
Other Circuits follow the same rule. See, e.g., Brewster
v. Hetzel, 913 F.3d 1042, 1051 (11th Cir. 2019)(no AEDPA deference
where state court "recast" petitioner's claim rather than "rulfing]
on the actual claim that [petitioner] presented"); Velazquez
v. Superintendent, 937 F.3d 151, 160 (3d Cir. 2019)(no AEDPA
deference where state courts "misunderstood" petitioner's claim
and so "failed to adjudicate it on the merits"); Henderson v.
Cockerell, 333 F.3d 592, 600-01 (5th Cir. 2003)(no AEDPA deference
where the state courts "misconstrued" petitioner's claims and
so "did not adjudicate the claim on its merits"); Brian R. Means,
Federal Habeas Manual §3:7 (Westlaw May 2020)("[A] claim is not
deemed to have been adjudicated on the merits for purposes of
AEDPA where the state court recast the claim as something other
than the actual one presented.") In short, both the.Sixth Circuit
precedent and the decision of its sister circuits uniformly establish'
that AEDPA does not apply when a state court misconstrues a petitioner's
claim and so fails to address the claim that the petitioner actually

27

presented.
That established rule should ha%e required the panel to
review Smith's Confrontation Clause claim de novo. As the panel
recognized, there is a "meaningful distinction" between the claim
the state court analyzed here (that "stipulation in general"
violate the Confrontation Clause) and the claim Smith raised
(thatAstiulaiions to absent eyewitness testimony" require a knowing
and voluntary waiver). Op.11. Indeed, that distinction is even
more significant than the panel ultimately realized; and discussed
below, far from "focus[ing] on a necessary implication of Smith's
claim, Op.11, the state court's decision missed the mark entirely.
Because the state court pMinly misconstrued Smith's Confrontation
Clause claim, it did not adjudicate that claim on the merits,
and so the panel erred by applying AEDPA deference. Campbell,
674 F.3d at 505.
B.

The Panel Erred by Rejecting Campbell and Jells and
Applying AEDPA Defference Instead.

The panel acknowledged that Campbell and Jells require applying
de novo review where, as here, the state court had misconstrued
the petitioner's arguments. Op.10. Its reason for refusing to
follow that binding Sixth Circuit precedent only underscores
the need for reversal.
The panel began by suggesting Campbell and Jells might no
longer be good law, finding those decision "hard to reconcile"
with the Supreme Court's later decision in Johnson. Op.10. Johnson,
however, said nothing at all about whether AEDPA deference should
apply when a state court has explicitly misconstrued a petitioner s
claim. Instead Johnson addressed a different question, entirely:
28

■ wherther AEDPA deference applies when a state court "issues
an opinion that addresses some issues but does not expressly
address the federal claim in question." 568 U.S. at 292. In that
situation - where the state court says nothing at all about a
properly presented claim - the Supreme Court held that a federal
court "must presume (subject or rebuttal) that the federal claim
was adjudicated on the merits." ML at 293. That presumption
makes perfect sense, since 'state courts will "frequently" consider
and reject claims without explicitly addressing them in a written
opinion - for instance, when the claim is "too insubstantial
to merit a discussion." Id. at 298-301.
Neither Johnson not its reasoning applies here. In this
case., the Ohio Sourt of Appeals did not "reject[]M Sssith's Confrontation
Clause claim "without expressly addressing that claim." _Id. at
301. Instead, the Ohio Court of Appeals did attempt to expressly
address Smith's Confrontation Clause claim - but misconstrued
it, analyzing a different and meaningfully distinct claim instead.
Op.6. Where a state court says nothing about a particular claim,
it is wholly reasonable to presume that the court rejected that
claaim 'on the merits, since it is "by no means uncommon" for a
state court to consider and reject claims without explicit discussion.
Johnson, 568 U.S. at 300. That presumption, however, cannot prevail
where the state court does attempt to address a claim, but its
discussions makes clear that it has misunderstood that claim.
In those circumstances, it makes no sense at all to conclude
that although the state court expressly misconstrued the petitioner's
claim in its opinion, it simultaneously also understood that

kJ

29

that claim correctly and adjudicated it on the merits. Even allowing
for a "healthy presumption" that state court normally adjudicate
properly presented claims on the merits, Op.10, that presumption
cannot prevail when the state court's opinion clearly shows that
it has misconstrued the claim.
Put in simply, Johnson said nothing even remotely suggesting
that the Supreme Court intended to upend more than a decade of
settled law - including an opinion by Johnson * s own author, see
Chadwick v. Janecka, 312 F.3d 597, 606 (3d cir. 2002) establishing
AEDPA deference does not apply when a state court has misconstrued
a petitioner's federal claim. Unsurprisingly, both the Sixth
Circuit and others have continued to apply that settled rule
post-Johnson. See Reddy v. Kelly, 657 F. App'x 531, 541-42 (6th
Cir. 2016)(applying de novo review where "the presumption

of

adjudication is rebutted" because the state court "misconstrued
the claim"); Ray v. Maclaren, 655 F. App'x 301, 309-10 (6th.
Cir. 2016); see also Velazquez, 937 F.3d at 160; Brewster, 913
F.3d at 1051. The panel's contrary suggestion that Johnson requires
AEDPA deference even when the state court explicitly misconstrues
a federal claim plainly warrants reversal.
The panel also suggested this case was governed by McKinney
v. Hoffner, 830 F.3d 3636 (6th Cir. 2016), but that case is even
farther afield. In McKinney, the petitioner was arrested and
suggested he wanted counsel; the interviewing officer responded
"Well that's fine, but like I said •••", at which point the petitioner
interrupted and went on to confess. 830 F.3d at 367. On appeal,
the petitioner argued that the officer's intervening statement
30

constituted interrogation

and so his later statement could not

be used to cast doubt on his initial invocation of his rights
to counsel. Id. at 376-681 see Smith v. Illinois, 469 U.S. 91
(1984). The state court did not expressly discuss whether the
intervening statement constituted interrogation - but it held
that the petitioner's earlier and later statements taken together
were not an unequivocal invocation, which necessarily implied
that it had found the officer's intervening statement was not
interrogation (since otherwise it could hot have considered the
petitioner's later statements at all). 830 F.3d at 368-69. Under
those circumstances,, the Court properly held that AEDPA deference
applied to the state court's implicit holding that the intervening
statement was not interrogation. Id.
McKinney (like Johnson) thus involved a state court decision
that ''did not explicitly address" part of the petitioner's claim
but misconstrued it. That alone makes McKinney inapposite. But
McKinney is even mote distinguishable, as the state court’s express
holding there necessarily implied that it reached the antecedent
holding to which the Sixth Circuit granted AEDPA deference (even
though the state court did not explicitly discuss that antecedent
holding). 830 F.3d at 368. Nothing similar applies here. The
state court's decision on the miseharacterized claim it addressed
does not logically imply that it also considered and decided
the claim Smith actually raised - in fact, it powerfully indicates
the opposite. See Reddy, 657 F. App'x at 541-42 (finding "the
presumption of adjudication

« •

. rebutted" where the state court

"misconstrued the claim"). The out-of-circuit cases that the
31

panel cited as applying Johnson are likewise inapposite.
Finally, despite recognizing the "meaninful distinction*'
between the claim analyedv,by the Ohio Court of Appeals and the
claim Smith had actually raised, the panel suggested the state
court might not have "misinterpret[ed3 Smith's argument" after
all. Op.11. The panel recognized that the state court had framed
Smith's claim as asserting that "stipulation in general" automatically
violate a defendant's Confrontation Clause rights, when in fact
Smith argued only sthat stipulations to 'absent eyewitness testimony/*
required a knowing and voluntary waiver of those rights (as the
Court has held, see Carter, 5 F.3d at 981). Op.11. But according
to the panel, "the implication of Smith's argument is that virtually
all stipulations (as practiced) would violate the Confrontation
Clause," and so the state court's opinion "strongly suggest"
it concluded Confrontation Clause rights need not be personally
waived. Op.11.
That analysis misses the mark. Smith'saGonfrontation Clause
claim does not imply that "stipulations in general" or "virtually
all stipulations (as practiced)" would violate the Confrontation
Clause. Most stipulation are to non-testimonial facts - for instance,
the existence of a prior conviction, or the weight of a controlled
substance - and so do not implicate the Confrontation Clause
at all. Crawqford v. Washington, 541 U.S. 36 (2004). Smith's
claim only implicates stipulations like the ones on which he
was convicted - namely, stipulations about how absent witnesses
would have testified against the defendant, a matter at the heart
of the Confrontation Clause right. The state court's holding
32

that "stipulations in general" do not violate the Confrontation
Clause thus comes nowhere near strongly suggesting (or even weakly
suggesting) that the state court also considered and adjudicated
Smithes more limited argument that stipulations to absent eyewitness'
testimony require a valid personal waiver. On the contrary, the
court's explicit?] misunderstanding of Smith's claim "strongly
suggest" it did not adjudicate the claim Smith actually raised.
C.

The Issue Presented Is Exceptionally Important.

The Sixth Circuit opinion not only conflicts with prior
circiut precedent, but does so on a critically important question.
The vast defference between de novo review and AEDPA deference
makes _f t crucial for federal courts to havexa consistent and
uniform standard for deciding whether a claim has been adjudicated
on the merits in state court. See Johnson, 568 U.S. at 292 (recognizing
the "importan[cej" of determining "whether a federal claims was
adjudicated on the merits"). By holding that AEDPA deference
applies even when a state court explicitly misconstrued the relevant
claim, the panel opinion has the potential to dramatically affect
the outcome in a wide range of cases.
This case itself is a perfect example. As the panel recognized,
the Sixth Circuit has previously held that "a defendant must
'personally waive his right to confront [a witness]," and "the
record must 'show that [the] defendant knew or was advised of
his rights' before doing so." Op.14 (brackets in original)(quoting
Carter, 5 F.3d at 981). Under that rule, Smith's conviction violated
his Sixth Amendment right to choose whether to confront the witnesses
against him, and his effective life sentence would have to be
33

reversed. But because the panel applied AEDPA deference, that
binding Sixth Circuit precedent was "of no moment" in tis analysisand looking to Supreme Court precedent alone, the panel considered
itself compelled to affirm. Op.11-15. That result strikingly
illustrates the crucial importance of the dividing line between
de novo review and AEDPA deference, and the equally crucial
importance of clear and sonsistent circuit precedent regarding
that line. Given the acknowledge tensison between the panel decision
here and established Sixth Circuit precedent on that issue, reversal
is plainly warranted.
CONCLUSION
WHEREFORE, Smith respectfully prays that the writ of certiorari
issue and his case is reversed. To the Court this writ is
Respectfully submi/ttled,

^ames H. Smith #689-855
tO Box 56
Lebanon, Ohio 45036

34

